U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 27, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Troy Kendrick v. United States of America,
S.Ct. No. 20-7667

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 2,
2021, and placed on the docket on April 6, 2021. The government’s response is due on May 6,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 7, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7667
KENDRICK, TROY
USA

SAMANTHA JEAN KUHN
OFFICE OF THE FEDERAL PUBLIC DEFENDER
FOR THE EAST
500 POYDRAS STREET
STE. 318
HALE BOGGS FEDERAL BUILDING
NEW ORLEANS, LA 70130
504-589-7942
SAMANTHA_KUHN@FD.ORG

